                            SOCIAL SECURITY
                             Office of the Inspector General

                                      June 28, 2011

The Honorable Xavier Becerra
Ranking Member, Subcommittee on
 Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Becerra:

On April 15, 2010, at a Subcommittee on Social Security oversight hearing on Social
Security Administration (SSA) field office service delivery, you asked my office to review
the Internet claim (iClaim) application. Specifically, you expressed concern about
whether applicants filing for benefits using the iClaim application were receiving an
appropriate level of service from SSA. To address this concern, we initiated four
reviews of the iClaim application. These reviews evaluated the iClaim application
process and obtained individuals’ perceptions of the iClaim application process for both
Retirement and Disability Insurance benefits.

I appreciate the opportunity to share our insights on this important matter. Enclosed is
the report for the last of our four reviews, which presents applicants’ perceptions of the
iClaim process for Disability Insurance benefits. To ensure SSA is aware of the
information provided to your office, we are forwarding a copy of this report to the
Agency.

If you have any questions concerning this matter, please call me or have your staff
contact Misha Kelly, Congressional and Intra-Governmental Liaison, at (202) 358-6319.

                                          Sincerely,




                                          Patrick P. O’Carroll, Jr.
                                          Inspector General

Enclosure

cc:
Michael J. Astrue

              SOCIAL SECURITY ADMINISTRATION       BALTIMORE, MD 21235-0001
CONGRESSIONAL RESPONSE
        REPORT

     Applicant Experiences with
  Disability Insurance Benefit Internet
           Claim Applications

            A-07-10-20176




              June 2011
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                           Background
OBJECTIVE
The objective of our review was to obtain applicants’ perceptions of the Internet
claim (iClaim) process for Disability Insurance benefits (DIB).

BACKGROUND
In response to customer requests for more Internet services and the requirements of the
Government Paperwork Elimination Act of 1998, 1 the Social Security Administration
(SSA) allows applicants to complete and electronically sign an online application for
certain Title II Social Security benefits. 2 Specifically, applicants can use the Internet to
file for DIB, Retirement Insurance benefits, and aged spouse's benefits. 3 In December
2008, SSA implemented the iClaim application, which modified prior versions of the
Internet application. 4

During the iClaim application process, applicants are alerted that, in addition to
submitting the formal iClaim application for DIB, they will need to complete and submit
to SSA two additional forms: Form SSA-3368-BK (Disability Report-Adult) and Form
SSA-827 (Authorization to Disclose Information to the Social Security Administration).
Applicants are given the option to complete the Internet version of the Disability Report-
Adult and submit it electronically or call SSA’s 800-number to arrange for in-office or
telephone assistance. 5 The Authorization to Disclose Information to the Social Security
Administration is available online for the applicant to print and sign, but it must be
mailed to SSA or delivered in person to an SSA field office. 6 If an applicant does not
submit both a Disability Report-Adult and an Authorization to Disclose Information to the
Social Security Administration, SSA must re-contact the applicant to obtain the missing
form(s). 7




1
    Pub. L. No. 105-277, 112 Stat. 2681-749.
2
    SSA, POMS, GN 00204.055 A. (effective 05/10/2010).
3
    SSA, POMS, GN 00204.055 B. (effective 05/10/2010).
4
    SSA, Teleservice Center Operating Guide, TC 31507.010 A. (effective 10/14/2010).
5
    SSA, POMS, GN 00204.055 L. (effective 05/10/2010).
6
  The formal iClaim application instructs the applicant on how to complete the Authorization to Disclose
Information to the Social Security Administration.
7
    SSA, POMS, GN 00204.055 L. (effective 05/10/2010).


Applicant Experiences with DI Benefits iClaim Applications (A-07-10-20176)                                 1
In Fiscal Year (FY) 2010, SSA received approximately 3 million DIB applications, with
approximately 800,000 (27 percent) received via iClaim. SSA expects to have
38 percent of DIB applications submitted using the iClaim application in FY 2012. 8

At an April 15, 2010 hearing before the House of Representatives’ Committee on Ways
and Means, Subcommittee on Social Security, Congressman Xavier Becerra asked the
Office of the Inspector General to review the iClaim application to ensure individuals
filing for benefits using the iClaim application were receiving an appropriate level of
service from SSA.

To address Congressman Becerra’s request, we selected a random sample of 250 DIB
iClaim applications filed in May 2010. We attempted to contact the sampled applicants
to obtain their perceptions of filing for DIB online. However, we were only able to hold
discussions with 154 (62 percent) of the 250 applicants. For the 96 applicants who did
not have a discussion completed,

•     29 could not be contacted (we attempted to call these applicants at least 3 times),
•     5 were deceased,
•     31 declined to participate, and
•     31 did not have a valid telephone number. 9

In addition to the discussions with applicants, we conducted focus groups to obtain
public insight about the DIB iClaim application. 10




8
    SSA, Social Security Administration Fiscal Year 2012 Budget Overview, p. 14, February 2011.
9
    See Appendix B for a detailed discussion of the scope, methodology, and sample results for our review.
10
     See Appendix C for focus group scope and methodology.


Applicant Experiences with DI Benefits iClaim Applications (A-07-10-20176)                               2
                                                            Results of Review
We held discussions with 154 of the 250 sampled applicants and found the applicants
had a positive experience filing for DIB online. In fact, we found that the majority of the
applicants understood the questions asked of them in the iClaim application, found the
iClaim application easy to navigate, and were able to easily save their progress and
return to the application if needed.

We also found that not all applicants completed and submitted the Authorization to
Disclose Information to the Social Security Administration to SSA. Further, applicants
did not always use the online version of the Disability Report-Adult. However, those
applicants who did complete the Report online understood the questions it asked.

In addition, we found that some applicants in our review were contacted by an SSA
employee when it was necessary to obtain more information or clarification of
information in the iClaim application and the Disability Report-Adult.

Also as a part of this review, we used a contractor to conduct focus groups to obtain
public insight about filing for DIB online using SSA’s iClaim application. 11 The
overwhelming majority of the focus group participants indicated they would use the
online application to file for DIB. The participants provided many opinions about the DIB
iClaim application process that we will share with SSA under a separate cover.

APPLICANTS’ EXPERIENCES WITH THE DIB ICLAIM APPLICATION

Based on our discussions, we                                 Chart 1: Overall Experience with the
determined that the majority of the                                   iClaim Application
applicants had a positive experience                                          Good
with the DIB iClaim application. In fact,                                    47 (31%)
                                                                                          Excellent
140 of the 154 applicants identified their                                                28 (18%)
experience filing online to be excellent,                              Very
                                                                      Good
very good, or good, with most of the                                 65 (43%)
applicants rating their experience as                                                                  Fair
very good (see Chart 1). 12                                                                           9 (6%)
                                                                                                Poor
                                                                                               3 (2%)

11
     See Appendix C for focus group scope and methodology.
12
   One applicant ended the call before rating her experience filing online, and one applicant did not feel it
was fair to rate his experience because his difficulty was due to his medical condition. Therefore,
Chart 1 only includes 152 of the 154 applicants. The 12 applicants who felt the iClaim was fair or poor
cited various reasons for their experience. Specifically, three applicants felt the application was too long;
two applicants felt the questions were repetitious; two applicants had difficulty explaining their answers;
one applicant felt the questions were confusing; one applicant had difficulty with navigation; one applicant
had difficulty remembering requested information; one applicant had difficulty due to her mental
impairment; and one applicant had difficulty operating the computer.


Applicant Experiences with DI Benefits iClaim Applications (A-07-10-20176)                                     3
One applicant stated the iClaim application was very good and thought it was self-
explanatory and easy to complete. Another applicant said, “The whole process went
very smoothly.”

Understandability of the DIB iClaim Application Questions

The majority of the applicants indicated they understood the questions asked in the
iClaim application. In fact, 147 of the 154 applicants responded that answering the
questions about general information for their claim—such as marital history, dependent
children, and military service—was somewhat easy or very easy (see blue bars in
Chart 2). 13 In addition, 129 of the 154 applicants responded that it was somewhat easy
or very easy to understand the
questions about their work history                  Chart 2: Ability to Answer DIB
and earnings (see red bars in                             iClaim Questions
           14
Chart 2). Finally, 138 of the
154 applicants responded that             107
                                                 71     76 67
providing general information about           53     40
their medical condition—such as                                   6 19 11     0 4 2 1 2 3
ability to work or whether they were
receiving workers’ compensation or        Very Easy Somewhat Somewhat Very Hard     Did not
                                                       Easy        Hard             Recall
other disability benefits—was
somewhat easy or very easy (see                      General Information Questions
green bars in Chart 2). 15
                                                              Work History and Earnings Questions
                                                              General Medical Condition Questions




13
   Of the seven remaining applicants, one did not recall whether he had difficulty answering the questions.
The six applicants who felt answering general information questions was somewhat hard cited various
reasons for the difficulty. Specifically, two applicants had difficulty understanding the questions; and
one applicant did not know how to respond to the questions. In addition, three applicants had difficulty
remembering the requested information. The applicants’ inability to remember the requested information
is beyond SSA’s control.
14
  Of the 25 remaining applicants, 2 did not recall whether they had difficulty answering the questions.
The 23 remaining applicants who felt answering the work history and earnings questions was somewhat
hard or very hard cited various reasons for the difficulty. Specifically, four applicants did not know how to
respond to the questions, and two applicants had difficulty understanding the questions. In addition,
16 applicants had difficulty remembering the requested information, and 1 applicant did not remember
why the questions were difficult to answer. The applicants’ inability to remember the requested
information is beyond SSA’s control.
15
   Of the 16 remaining applicants, 3 did not recall whether they had difficulty answering the general
questions about their medical condition. The 13 remaining applicants who felt it was somewhat hard or
very hard to answer the questions cited various reasons for the difficulty. Specifically, five applicants had
difficulty understanding the questions. In addition, five applicants had difficulty explaining their medical
condition; two applicants had difficulty remembering the requested information; and one applicant did not
recall why she thought the questions were difficult to answer. The applicants’ inability to provide the
requested information is beyond SSA’s control.


Applicant Experiences with DI Benefits iClaim Applications (A-07-10-20176)                                  4
The results of our review show that, from a customer service perspective, SSA had
made the questions on the iClaim application easy to understand for most applicants
filing for DIB via the Internet.

Ability to Navigate the DIB iClaim Application

The majority of the applicants in our review stated that the iClaim was very easy or
somewhat easy to navigate. Specifically, 135 of the 154 applicants rated their
navigation of the iClaim as very easy or somewhat easy. 16 In addition, 79 of the
154 applicants saved their progress on the iClaim application and completed it at a later
time. Of these 79 applicants, 70 stated it was very easy or easy to return to the
application. 17 One applicant stated that he liked being able to reenter the iClaim
application because he did not initially have all the information he needed to complete
his application.

Furthermore, there were 37 applicants who changed their answers after reviewing the
information they had entered into the iClaim application. Of these, 33 indicated that it
was either very easy or easy to make the changes. 18

The results of our review show that, from a customer service perspective, SSA made
the iClaim application easy to navigate for applicants filing for DIB via the Internet.

APPLICANTS’ EXPERIENCES WITH SUPPLEMENTARY FORMS

As previously discussed, during the iClaim application process, applicants are alerted
that, in addition to submitting the formal application for DIB, they also need to complete
and submit the Authorization to Disclose Information to the Social Security
Administration and the Disability Report-Adult. 19 However, we found that not all
applicants completed and submitted the supplementary forms. In addition, even though

16
   Of the 19 remaining applicants, 4 did not recall their ability to navigate the iClaim application. The
15 remaining applicants who felt the iClaim was somewhat hard or very hard to navigate cited various
reasons for the difficulty. Specifically, five applicants found the formatting hard to navigate; one applicant
was unable to enter some of the required information into the application; and one applicant used an
internet browser that was incompatible with the iClaim application. In addition, four applicants had
difficulty due to their mental impairments; three applicants had difficulty operating the computer; and
one applicant did not remember why it was difficult to navigate the iClaim application. The applicants’
mental impairments and computer difficulties are beyond SSA’s control.
17
  Of the nine remaining applicants, one did not recall how easy or hard it was to reenter the application.
The eight remaining applicants felt it was hard or very hard to reenter the application for various reasons.
Specifically, five applicants had difficulty figuring out how to reenter the application; and two applicants
were not allowed to reenter the application. In addition, one applicant did not write down the application
number needed to reenter the application. The applicant’s not writing down the application number is
beyond SSA’s control.
18
  Of the four remaining applicants, two had difficulty getting back to the item; one used an Internet
browser that was incompatible with the online application; and one could not change the information.
19
     SSA, POMS, GN 00204.055 L. (effective 05/10/2010).


Applicant Experiences with DI Benefits iClaim Applications (A-07-10-20176)                                   5
a number of applicants did not complete the Disability Report-Adult online, the majority
of those who did complete the form online indicated they understood the questions it
contained.

Authorization to Disclose Information to the Social Security Administration

The Authorization to Disclose Information to the Social Security Administration
authorizes SSA to retrieve relevant medical and non-medical information to assist the
Agency in determining whether the individual meets SSA’s definition of a disability.
Specifically, SSA and State disability determination services (DDS) use the
Authorization to Disclose Information to the Social Security Administration to obtain
evidence of the alleged medical conditions and treatments from the doctors, hospitals,
and other sources the applicant provided. 20 If SSA does not receive the Authorization
to Disclose Information to the Social Security Administration, it may deny the
application. 21

Of the 154 applicants in our review, 43 did not initially submit the Authorization to
Disclose Information to the Social Security Administration and had to be contacted by
SSA. 22 When asked why they did not print and submit the Authorization to Disclose
Information to the Social Security Administration, the applicants cited three main
reasons—not knowing it was required, not having a printer available, and not knowing it
was available online.

Disability Report-Adult

On the Disability Report-Adult, applicants provide information regarding medical
conditions, work history, education, medicines, and treatments. DDSs use the Disability
Report-Adult to develop medical or other types of evidence, establish the correct
disability onset date, and assess the alleged disability in conjunction with non-medical
factors. 23 If SSA does not receive the Disability Report-Adult, it will likely deny the
individual’s application. 24




20
     SSA, POMS, DI 11005.055 A. (effective 10/19/2010).
21
  SSA can still process an application without the Form SSA-827 if the individual provided medical
evidence. SSA, POMS, DI 11018.005 C.3.a. (effective 02/02/2011).
22
     Two applicants ended the call before discussing Form SSA-827.
23
  SSA, POMS, DI 11005.023 A. (effective 03/250/2010). Non-medical factors include the individual’s
education and work history.
24
 SSA can still process an application without the Disability Report-Adult if the individual provided
medical evidence. SSA, POMS, DI 11018.005 C.3.a. (effective 02/02/2011).


Applicant Experiences with DI Benefits iClaim Applications (A-07-10-20176)                             6
Of the 154 applicants in our review, 33 did not complete the online version of the
Disability Report-Adult. 25 When asked why they did not complete the online version of
the Disability Report-Adult, the applicants cited various reasons. Several applicants
stated it was easier to complete the Report with SSA’s assistance. For example, one
applicant stated that she had so many medical records she thought it would be easier to
complete the Report at a Social Security office. Another applicant stated that he went to
a Social Security office to get help filing the Report because it was hard for him to
understand some of the questions. Applicants also stated that they did not realize the
Report was available online or they did not know the Report was required.

Of the 91 applicants who completed the Disability Report-Adult online, 83 indicated their
experience with the online Report was excellent, very good, or good, with most of the
applicants rating their experience as very good. 26

The majority of the applicants who                  Chart 3: Ability to Answer
completed the Disability Report-                 Adult Disability Report Questions
Adult online indicated they
                                            44
understood the questions it
contained. In fact, 73 of the
91 applicants who completed the                         29
Disability Report-Adult online                                      17
                                                                               Very Easy
responded that answering the                                                   Somewhat Easy
questions about detailed medical,                                              Somewhat Hard
work, and education history were
very easy or somewhat easy (see
                                         Very Easy Somewhat Somewhat
Chart 3). 27 One applicant stated                      Easy        Hard
that, once she was able to gather
all of the necessary information, the questions on the Disability Report-Adult were very
easy to answer.

25
  Of the remaining 121 applicants, 91 completed the online version of the Disability Report-Adult, 21 did
not recall how they completed the Report, and 9 did not complete the Report.
26
  One applicant ended the call before rating her experience filing the Disability Report-Adult online. The
seven applicants who felt Disability Report-Adult was fair, poor, or very poor cited various reasons for
their experience. Specifically, two applicants felt the Report was long and repetitious; one applicant did
not like the formatting; and one applicant had difficulty locating the Report. In addition, three applicants
had difficulty remembering requested information. The applicants’ inability to remember the requested
information is beyond SSA’s control.
27
  One applicant ended the call before rating the questions about detailed medical, work, and education
history. Therefore, we only included 90 of the 91 applicants who filed the Disability Report-Adult online in
Chart 3. The 17 applicants who felt the detailed medical, work, and education history questions were
somewhat hard cited various reasons for the difficulty. Specifically, three applicants felt it asked too many
questions; two applicants did not know how to answer the questions; and one applicant thought it was not
user friendly. In addition, eight applicants had difficulty remembering the requested information; and
four applicants did not give a specific reason for their difficulty. The applicants’ inability to remember the
requested information is beyond SSA’s control. The total number of reasons applicants had difficulty with
the detailed medical, work, and education history questions is greater than the number of applicants who
did not give a rating of very easy or easy because one applicant gave multiple reasons.


Applicant Experiences with DI Benefits iClaim Applications (A-07-10-20176)                                     7
SSA RE-CONTACT WITH APPLICANTS

Under certain circumstances, an SSA employee must re-contact an applicant for more
information, or clarification of information, in the iClaim application or the Disability
Report-Adult before the iClaim can be processed. Of the 154 applicants in our review,
88 recalled being re-contacted by an SSA employee after submitting their iClaim
application. 28, 29 According to the applicants, the employees re-contacted them
predominantly for two issues—to obtain additional medical information or to complete
the Disability Report-Adult (see Table 1).

                                 Table 1: Reasons for Re-contact 30
                             Re-contact Issue                                  Applicants
        Did Not Recall                                                        27             31%
        Obtain Additional Medical Information                                 16             18%
        Complete the Disability Report-Adult                                  14             16%
        Work History or Earnings                                              11             13%
        Other31                                                                9             10%
        Complete the Authorization to Disclose Information to
                                                                                8              9%
        the Social Security Administration
        Schedule Medical Examination                                           5              6%
        Needed Documentation                                                   4              5%
        Discuss Daily Activities                                               4              5%
                                                        Total                 98            113%

We did not review the accuracy of the iClaim applications or Disability Report-Adults
processed for the applicants in our review. Therefore, we cannot conclude that SSA
made all necessary re-contacts. However, our review did provide evidence that SSA
was following up with applicants to obtain additional information or clarification.



28
     Two applicants ended the call before discussing re-contacts by SSA.
29
   In May 2011, we issued a review that surveyed the SSA employees who processed the 250 DIB iClaim
applications in our sample, and provides more in-depth reasons for employee re-contact. The review
found that the SSA employees re-contacted 170 of the sampled individuals to obtain additional
information or clarification. SSA employees re-contacted these individuals predominantly for three
issues—the Authorization to Disclose Information to the Social Security Administration had not been
received; the Disability Report-Adult had not been received or was incomplete; and to take an application
or discuss eligibility for Supplemental Security Income. SSA, OIG, Internet Claim Applications for
Disability Insurance Benefits (A-07-10-20166), available at http://www.ssa.gov/oig/ADOBEPDF/
A-07-10-20166.pdf.
30
  The total number of reasons applicants were re-contacted is greater than the number of applicants who
were re-contacted because some applicants were re-contacted for multiple reasons. Therefore, the total
percentage of applicants who were re-contacted for various reasons is also greater than 100 percent.
31
     See Appendix B, Table B-12 for all reasons for re-contact.


Applicant Experiences with DI Benefits iClaim Applications (A-07-10-20176)                              8
FOCUS GROUP RESEARCH

As part of this review, we used a contractor to conduct six focus groups in
Miami, Florida; Dallas, Texas; and Los Angeles, California. The contractor conducted 2
focus groups—with 10 participants each—in each city. 32 In part, we sought to
determine whether participants would use the DIB iClaim application if they were to file
a claim for DIB; and whether they understood the questions asked in the DIB iClaim
application and in the Disability Report-
Adult.                                           Chart 4: Method Participants Would
When asked, 48 of the 60 participants                     Use to FIle for DIB
                                                                                    Visit local
indicated they would attempt to file                                                  office
online using the iClaim application (see                                              5 (8%)
                                                         Online
Chart 4). One participant who would not                 48 (80%)                    Not sure
file online stated, “I think if I was filing for                                     5 (8%)
disability, I probably would need help
because that’s why you’re filing for                                                   Call SSA
                                                                                        1 (2%)
disability. So I would go for an advocate
or somebody to help me.” Another                                               Would
                                                                               Not File
participant stated, “I’m the one who                                            1 (2%)
would call…my disability would keep me
from getting in or getting on the computer, or I’m think[ing] of my mother who’s old and
can’t use the computer.…”

The focus group participants provided many opinions about the process for applying
online for DIB. Examples follow.

•     Participants said that the “Apply Online for Disability benefits” page was text-heavy
      and cluttered, and some participants did not notice the link to the “Adult Disability
      Checklist,” which provides details about what is needed before starting the online
      process.

•     Participants were disappointed to learn that they still had to submit documents to
      Social Security by mail or in person. They felt this was inconsistent with lauding the
      conveniences of applying online. Participants indicated it would be helpful to be able
      to electronically scan and submit supporting documentation to SSA.




32
     See Appendix C for focus group scope and methodology.


Applicant Experiences with DI Benefits iClaim Applications (A-07-10-20176)                    9
•   Participants stated that the instructions were not clear for the section on “Doctors
    and Other Healthcare Professionals” in the Disability Report-Adult. Some
    participants wondered whether they should list all healthcare providers they had ever
    seen for the condition or only those they were currently seeing. One participant
    stated, “What does Social Security want? Do they want the doctor who treated you
    when you were 6 years old? I doubt it, but I think there should be instruction [such
    as] ‘List current doctors, and any and all doctors and healthcare providers involved
    in any way with this disability.’”

•   Participants stated the instructions were not clear for the section on “Medicines” in
    the Disability Report-Adult. Some participants wondered whether they should
    include over‐the‐counter medicines and whether they should enter only the
    medicines they were currently taking or all medicines they had ever taken for their
    disabling condition.

To ensure SSA is aware of all of the opinions expressed by the focus group
participants, we will provide the Agency with a copy of the contractor’s focus group
report.




Applicant Experiences with DI Benefits iClaim Applications (A-07-10-20176)                  10
                                                                   Conclusions
During our discussions with the applicants in our review, we found a high level of
satisfaction with the DIB iClaim application. Specifically, 140 of the 154 applicants we
were able to contact found their overall experience filing the iClaim application online to
be excellent, very good, or good. Most applicants also responded that the questions
asked in the iClaim application were easy to understand, they found the iClaim
application easy to navigate, and they were able to easily save their progress and return
to the application if needed.

We also found that, for varying reasons, a number of applicants did not initially submit
the Authorization to Disclose Information to the Social Security Administration and had
to be contacted by SSA. In addition, we found that applicants had varying preferences
on the method used to complete the Disability Report-Adult. However, most applicants
who did complete the Disability Report-Adult online had a positive experience with the
form and understood the questions asked in it.

Additionally, we found that SSA was following up with applicants to obtain additional
information or clarification of information in the iClaim application and in the Disability
Report-Adult.

Furthermore, the majority of the focus group participants indicated they would use the
online application to file for DIB. The focus group participants provided many opinions
about the DIB iClaim application process that we will share with SSA.




Applicant Experiences with DI Benefits iClaim Applications (A-07-10-20176)                    11
                                            Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope, Methodology, and Sample Results
APPENDIX C – Focus Group Scope and Methodology




Applicant Experiences with DI Benefits iClaim Applications (A-07-10-20176)
                                                                             Appendix A

Acronyms
    DDS                       Disability Determination Services
    DIB                       Disability Insurance Benefits
    FY                        Fiscal Year
    iClaim                    Internet Claim
    POMS                      Program Operations Manual System
    Pub. L. No.               Public Law Number
    SSA                       Social Security Administration
    Forms
    SSA-3368-BK               Disability Report-Adult
    SSA-827                   Authorization to Disclose Information to the Social Security
                              Administration




Applicant Experiences with DI Benefits iClaim Applications (A-07-10-20176)
                                                                                      Appendix B

Scope, Methodology, and Sample Results
To address Congressman Becerra’s request related to the Internet claim (iClaim)
application process, we:

• Reviewed applicable Federal laws and regulations and sections of the Social Security
  Administration’s (SSA) Program Operations Manual System related to the iClaim
  application process.
• Reviewed prior Office of the Inspector General reports related to SSA’s electronic
  services.
• Obtained a data extract from SSA of 60,943 Disability Insurance benefits (DIB) iClaim
  applications filed in May 2010. 1
• From the data extract, we selected a random sample of 250 DIB iClaim applications.
  For each sampled DIB iClaim application, we
        mailed applicants up to 2 letters regarding our review;
        recorded information provided regarding their experiences using the iClaim for
         those we were able to contact; and
        completed discussions with 154 of the 250 applicants in our sample. For the
         96 applicants who did not have a discussion completed,
              29 were unable to be contacted, 2
              5 were deceased,
              31 declined to participate, and
              31 did not have a valid telephone number.
• Conducted focus groups to obtain public insight about filing for DIB online using
  SSA’s iClaim application. Specifically, we used a contractor to hold six focus groups
  in Miami, Florida; Dallas, Texas; and Los Angeles, California. The contractor
  conducted 2 focus groups—with 10 participants each—in each city. 3


1
  SSA’s Management Information Report for May 2010 reported 65,579 DIB iClaim applications were filed
in May 2010. Therefore, the data extract contained 4,636 applications fewer than SSA identified.
According to SSA, the discrepancy was due to a timing issue between the system that produces the
Management Information Report and the system from which the data extract was pulled. We accepted
this explanation from SSA and determined the data extract was materially complete to meet the
objectives of this review.
2
    We attempted to call applicants with a valid telephone number at least three times.
3
    See Appendix C for focus group scope and methodology.


Applicant Experiences with DI Benefits iClaim Applications (A-07-10-20176)                       B-1
Our work was conducted at the Office of Audit in Kansas City, Missouri, from May 2010
through April 2011. The entity reviewed was the Office of Operations. We determined
that the data used in this report were sufficiently reliable given the objective and their
intended use. We conducted our review in accordance with the Council of the
Inspectors General on Integrity and Efficiency’s Quality Standards for Inspection and
Evaluation.

SAMPLE RESULTS

          Table B-1: Rating of Social Security’s Internet Claim Application
                                                                        Applicants
  Excellent                                                          28           18%
  Very Good                                                          65           43%
  Good                                                               47           31%
  Fair                                                                9            6%
  Poor                                                                3            2%

     Table B-2: Ability to Answer Questions About General Information in the
                             Internet Claim Application
                                                             Applicants
  Very Easy                                             107            69%
  Somewhat Easy                                          40            26%
  Somewhat Hard                                            6            4%
  Did Not Recall                                           1            1%

   Table B-3: Ability to Answer Questions About Work History and Earnings in
                           the Internet Claim Application
                                                             Applicants
  Very Easy                                               53           35%
  Somewhat Easy                                           76           49%
  Somewhat Hard                                           19           12%
  Very Hard                                                4            3%
  Did Not Recall                                           2            1%

   Table B-4: Ability to Answer Questions About General Medical Condition in
                           the Internet Claim Application
                                                             Applicants
  Very Easy                                               71           46%
  Somewhat Easy                                           67           44%
  Somewhat Hard                                           11            7%
  Very Hard                                                2            1%
  Did Not Recall                                           3            2%




Applicant Experiences with DI Benefits iClaim Applications (A-07-10-20176)              B-2
         Table B-5: Ability to Navigate the Online Internet Claim Application
                                                                        Applicants
  Very Easy                                                          51          33%
  Somewhat Easy                                                      84          55%
  Somewhat Hard                                                      10            6%
  Very Hard                                                           5            3%
  Did Not Recall                                                      4            3%

            Table B-6: Ability to Return to the Internet Claim Application
                                                                          Applicants
  Very Easy                                                          30             38%
  Easy                                                               40             51%
  Hard                                                                5              6%
  Very Hard                                                           3              4%
  Did Not Recall                                                      1              1%

   Table B-7: Ability to Make Changes to Information Already Entered into the
                            Internet Claim Application
                                                             Applicants
  Very Easy                                               14           38%
  Somewhat Easy                                           19           51%
  Somewhat Hard                                            3            8%
  Very Hard                                                1            3%

  Table B-8: Submitting the Authorization to Disclose Information to the Social
                             Security Administration
                                                              Applicants
  Printed and Submitted to SSA                             84           55%
  Contacted by SSA                                         43           28%
  Did not Recall                                           18           12%
  Neither                                                   7            5%

  Table B-9: Manner in Which Applicants Completed the Disability Report-Adult
                                                                        Applicants
  Online                                                             91           59%
  Did Not Recall                                                     21           14%
  During an Interview with a Social Security Employee                20           13%
  Paper Copy                                                         13            8%
  Did Not Complete the Disability Report-Adult                        9            6%




Applicant Experiences with DI Benefits iClaim Applications (A-07-10-20176)                B-3
       Table B-10: Rating of Social Security’s Internet Disability Report-Adult
                                                                        Applicants
  Excellent                                                          16           18%
  Very Good                                                          35           39%
  Good                                                               32           36%
  Fair                                                                4            4%
  Poor                                                                2            2%
  Very Poor                                                           1            1%

            Table B-11: Ability to Answer the Detailed Medical, Work,
              and Education History on the Disability Report-Adult
                                                             Applicants
  Very Easy                                               44           49%
  Somewhat Easy                                           29           32%
  Somewhat Hard                                           17           19%

           Table B-12: Reasons for Contact by Social Security Employees
                                                                        Applicants
  Did Not Recall                                                     27           31%
  Obtain Additional Medical Information                              16           18%
  Complete the Disability Report-Adult                               14           16%
  Work History or Earnings                                           11           13%
  Complete the Authorization to Disclose Information to
                                                                       8          9%
  the Social Security Administration
  Schedule a Medical Examination                                       5          6%
  Needed Documentation                                                 4          5%
  Discuss Daily Activities                                             4          5%
  Auxiliaries                                                          3          3%
  Confirm Information Provided                                         2          2%
  Schedule an Appointment with Social Security                         2          2%
  Eligibility for Other Benefits                                       1          1%
  Marital History, Dependent Children, or Military
                                                                       1          1%
  Service




Applicant Experiences with DI Benefits iClaim Applications (A-07-10-20176)              B-4
                                                                             Appendix C

Focus Group Scope and Methodology
DESCRIPTION OF FOCUS GROUPS

We used a contractor to hold six focus groups in Miami, Florida; Dallas, Texas; and Los
Angeles, California. The contractor conducted 2 focus groups—with 10 participants
each—in each city. Participant criteria for the focus groups were as follows.

  Focus Group 1
   • In the 30−49 year age range with an equitable distribution of male and female
     participants in each focus group.
   •   Fluent in English.
   •   Not currently employed by the Government (including the Social Security
       Administration [SSA]).
   •   Had not applied for Social Security benefits and was not already receiving them.
   •   Experienced with Internet usage.
   •   Mix of race/ethnicity, gender, income, and education.

  Focus Group 2
   • In the 50–67 year age range with an equitable distribution of male and female
     participants in each focus group.
   •   Fluent in English.
   •   Not currently employed by the Government (including SSA).
   •   Had not applied for Social Security benefits and was not already receiving them.
   •   Experienced with Internet usage.
   •   Mix of race/ethnicity, gender, income, and education.

METHODOLOGY

The contractor showed participants in both groups various pages of the online Disability
Insurance benefit Internet claim (iClaim) Application, Disability Report-Adult, and the
Authorization to Disclose Information to the Social Security Administration. The
contractor then asked participants about their understanding and opinion of the various
pages.




Applicant Experiences with DI Benefits iClaim Applications (A-07-10-20176)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
 Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
 Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
 Education and Related Agencies, Committee on Appropriations, House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions and
 Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
